U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 6, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Michael W. Gahagan v. Citizenship & Immigration Services,
S.Ct No. 19-73

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 11,
2019, and placed on the docket on July 15, 2019. The government's response is due on August
14, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 13, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0073
GAHAGAN, MICHAEL W.
CITIZENSHIP & IMMIGRATION SERVICES

KATHERINE S. BARRETT WIIK
BEST & FLANAGAN LLP
60 SOUTH SIXTH STREET
SUITE 2700
MINNEAPOLIS, MN 55402
612-341-9710
KBARRETTWIIK@BESTLAW.COM
MAHESHA P. SUBBARAMAN
SUBBARAMAN PLLC
2225. STREET
SUITE 1600
MiNNEAPOLIS, MN 55402
612-315-9210
MPS@SUBBLAW.COM

